Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICARE CLAIMS
    ADMINISTRATION
CONTRACTORS’ ERROR RATE
    REDUCTION PLANS




                    Daniel R. Levinson
                     Inspector General

                      January 2014
                     OEI-09-12-00090
EXECUTIVE SUMMARY: MEDICARE CLAIMS ADMINISTRATION
CONTRACTORS’ ERROR RATE REDUCTION PLANS, OEI-09-12-00090

WHY WE DID THIS STUDY

According to the Centers for Medicare & Medicaid Services’ (CMS) Comprehensive
Error Rate Testing (CERT) program, Medicare claims administration contractors
improperly paid an estimated $29.6 billion during the Federal fiscal year 2012 reporting
period. The improper payment rate (error rate) was 8.5 percent, above the target rate of
5.4 percent. To reduce the error rate, CMS requires claims administration contractors to
submit error rate reduction plans. In these plans, contractors must describe the corrective
actions that they will take to lower their error rates. In addition to overseeing contractors’
efforts to reduce their error rates, CMS has the authority to offer financial incentives to
the new type of claims administration contractor, Medicare Administrative Contractors
(MACs).

HOW WE DID THIS STUDY

We reviewed error rate reduction plans submitted for calendar year 2011 or 2012 to
describe plan content and determine whether the plans included the required elements.
To assess CMS’s oversight of the plans, we analyzed interview responses about reviews
of the plans by CMS staff. We also analyzed information about the incentives that CMS
offered to MACs in 2011 and 2012 to reduce their error rates.

WHAT WE FOUND

Most error rate reduction plans included the required elements. However, corrective
actions were not always relevant to claims administration contractors’ CERT results and
varied substantially in number. CMS oversight of error rate reduction plans is limited.
CMS staff who reviewed the plans may have been unable to determine whether the plans
addressed their most recent CERT results. Additionally, although some of the sampled
plans did not include the five required elements or were for contracts with high error
rates, CMS approved all sampled plans without recommending different or additional
corrective actions. Finally, limitations in CMS’s administration of incentives for error
rate reduction may reduce their effectiveness.

WHAT WE RECOMMEND

CMS concurred with our four recommendations to (1) review its process for overseeing
claims administration contractors’ error rate reduction, (2) ensure that contractors submit
clear plans for reducing their error rates, (3) provide additional guidance for contractors
and CMS staff who review plans, and (4) provide error rate reduction incentives that are
aligned with the contracts’ error rates and performance periods.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Findings......................................................................................................11

           Most error rate reduction plans included the required elements, 

           but corrective actions were not always relevant to claims

           administration contractors’ CERT results and varied 

           substantially in number ..................................................................11

           CMS oversight of error rate reduction plans is limited..................14 

           Limitations in CMS’s administration of incentives for error 

           rate reduction may reduce their effectiveness ................................17 

Conclusion and Recommendations ............................................................20 

           Agency Comments and Office of Inspector General Response.....22 

Appendix....................................................................................................23 

           Agency Comments.........................................................................23 

Acknowledgments......................................................................................26 

                   OBJECTIVES
                   1.	 To describe claims administration contractors’ error rate reduction
                       plans.
                   2.	 To assess the Centers for Medicare & Medicaid Services’ (CMS)
                       oversight of error rate reduction plans.
                   3.	 To assess the financial incentives that CMS offered to Medicare
                       Administrative Contractors (MACs) to reduce their error rates.


                   BACKGROUND
                   Medicare Claims Administration Contractors
                   CMS uses contractors to process claims and pay for services provided to
                   beneficiaries in the Medicare fee-for-service program (claims
                   administration contractors).1 The scope of each claims administration
                   contract covers a specific jurisdiction (i.e., States) and one or more claim
                   types. Claim types include durable medical equipment (DME), Part A
                   claims, Part B claims, and home health and hospice claims. Some of these
                   contractors are awarded and administer multiple contracts.
                   CMS has completed the process of replacing all other claims
                   administration contractor types with MACs.2 When the jurisdiction
                   consolidation is complete, 10 MACs will process all Medicare Part A and
                   Part B claims (A/B MACs) and 4 MACs will process all DME claims.3
                   For the purpose of this report, “claims administration contractors” or
                   “contractors” refers to all types of claims administration contractors,
                   including MACs. Use of the term “MACs” refers solely to MACs.
                   The primary goal of each claims administration contractor is to “pay it
                   right,” i.e., to pay the proper amount for covered, medically necessary, and
                   correctly coded services.4 In Federal fiscal year 2011, claims




                   1
                     At the time of data collection, claims administration contractors consisted of fiscal
                   intermediaries, carriers, and regional home health intermediaries, all of which have
                   historically processed Medicare fee-for-service claims, and MACs.
                   2
                     Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act
                   of 2003, Public Law 108-173, expanded CMS’s authority to contract with entities such as
                   MACs.
                   3
                     Administration of home health and hospice claims will be consolidated into four of the
                   A/B MAC contracts. 

                   4
                     CMS, Medicare Fee-for-Service 2011 Improper Payments Report, p. 6. Accessed at 

                   http://www.cms.gov/Research-Statistics-Data-and-Systems/Monitoring-Programs/ 

                   CERT/Downloads/2011-Medicare-FFS-Improper-Payment-Report-.pdf on May 9, 2013. 


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                 1
                   administration contractors collectively processed about 1.2 billion claims.5
                   Because of the large number of claims that contractors must process, they
                   cannot manually review every claim submitted by providers. Instead,
                   contractors take two main types of actions to prevent improper payments:
                   (1) medical review of selected claims and (2) provider outreach and
                   education. Medical review actions include identifying claims for review
                   and determining whether they meet Medicare coverage criteria,
                   implementing automated prepayment edits,6 and developing local
                   coverage policies. Provider outreach and education is provided through a
                   variety of media, such as articles, conference calls, and Web-based
                   training.7
                   Measuring Improper Payments Made by Claims Administration
                   Contractors
                   CMS’s Comprehensive Error Rate Testing (CERT) program measures the
                   improper payment rate (error rate) in the Medicare fee-for-service
                   program. CERT contractors review a stratified random sample of
                   submitted claims to determine whether the claims met Medicare
                   requirements. The CERT program found that during the 2012 fiscal
                   reporting period, claims administration contractors improperly paid an
                   estimated $29.6 billion out of the $349.7 billion in total program
                   expenditures.8 The national error rate was 8.5 percent,9 above CMS’s
                   target error rate of 5.4 percent.10
                   In addition to measuring the national error rate, the CERT program
                   measures the error rate for each claims administration contract. In the
                   2010 and 2011 reporting periods, the CERT program found that claims
                   administration contractors improperly paid between an estimated
                   $17 million and $3.2 billion annually, per contract. Contract-specific error
                   rates ranged from 1 to 76 percent.11, 12

                   5
                     Government Accountability Office (GAO), Greater Prepayment Control Efforts Could
                   Increase Savings and Better Ensure Proper Payment (GAO-13-102), November
                   2012, p. 6.
                   6
                     “Edits” are coded into the claims payment system to automatically deny all or part of a
                   claim or suspend all or part of a claim for manual review. CMS, Medicare Program
                   Integrity Manual, ch. 3, § 3.2, and ch.7, § 7.2.8.1.
                   7
                     CMS, Medicare Contractor Beneficiary and Provider Communications Manual, ch.
                   6, § 20. 

                   8
                     Department of Health and Human Services, Fiscal Year 2012 Agency Financial Report: 

                   Other Accompanying Information, pp. 164-165.

                   9
                     Ibid. 

                   10
                      CMS, Medicare Fee-for-Service 2011 Improper Payments Report, p. 32.

                   11
                      Office of Inspector General (OIG) analysis of CMS improper payment and error rate 

                   data, 2013.

                   12
                      During this time, DME MACs had error rates between 61 and 76 percent. The 

                   remaining contractor types had error rates between 1 and 24 percent.


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                 2
                   Related Work on Improper Payments Made by Claims
                   Administration Contractors
                   GAO has considered Medicare to be a high-risk program since 1990. In
                   February 2013, GAO found that although CMS had made progress in
                   measuring and reducing Medicare improper payments, it had yet to
                   demonstrate sustained progress in lowering the error rates.13
                   Recent OIG reports have found that claims administration contractors did
                   not take consistent and sufficient action to avoid making improper
                   payments. OIG reported in October 2010 that contractors did not use
                   historical CERT data to identify error-prone providers for corrective
                   action.14 Another OIG report found that only one of the nine MACs it
                   reviewed performed activities to detect and deter fraud by community
                   mental health centers in 2010, although, at the time, approximately half of
                   the centers exhibited questionable billing characteristics.15 A third OIG
                   report found that of the two MACs included in the review, one processed
                   claims for 95 percent of the home health agencies in the MACs’ two
                   regions in 2011, but identified only 2 percent of improper payments that
                   were prevented for home health services by the two MACs.16
                   Error Rate Reduction Plans
                   To reduce the Medicare fee-for-service error rate, CMS began requiring
                   claims administration contractors to submit error rate reduction plans in
                   2003. The Medicare Program Integrity Manual states that these plans are
                   the “cornerstone of … efforts to prevent improper payments.”17 In their
                   plans, contractors must describe the corrective actions (that is, medical
                   review and provider outreach and education actions) that they plan to take
                   to lower their error rates.18
                   Data Used To Develop Error Rate Reduction Plans. CMS requires that
                   claims administration contractors use their CERT results to develop error
                   rate reduction plans.19 Every November, CMS provides contractors with

                   13
                      GAO, GAO’s 2013 High-Risk Update: Medicare and Medicaid (GAO-13-433T),
                   February 2013. GAO stated that because the size of Medicare relative to other programs
                   leads to aggregate improper payments that are extremely large, continuing to reduce
                   improper payments in this program should remain a priority for CMS.
                   14
                      OIG, Centers for Medicare & Medicaid Services’ Use of Medicare Fee-for-Service
                   Error Rate Data To Identify and Focus on Error-Prone Providers (A-05-08-00080),
                   October 2010.
                   15
                      OIG, Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud
                   in Community Mental Health Centers (OEI-04-11-00101), January 2013.
                   16
                      OIG, CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220),
                   December 2012.
                   17
                      CMS, Medicare Program Integrity Manual, ch. 1, § 1.3.1.

                   18
                      Ibid., ch.12, § 12.3.9. 

                   19
                      Ibid., ch. 12, § 12.3.9, and ch. 7, §§ 7.1 and 7.8.1.1.


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                3
                   CERT results specific to each contract. The CERT results include
                   information about each improper payment, such as the procedure code,
                   service setting, and error type, which contractors can analyze to identify
                   common reasons for errors in their jurisdictions. According to CMS,
                   contract-specific CERT results “provide…contractors with valuable
                   information to assist in the development of specific, robust corrective
                   actions to prevent improper payments from occurring in the future.”20
                   Contractors also have continuous access to CERT-identified improper
                   payments through a private Web site.
                   CMS expects, but does not require, claims administration contractors to
                   use information about improper payments identified by Recovery Audit
                   Contractors (RAC) to identify areas needing corrective action.21, 22 RACs
                   and contractors share data with each other on improper claims and
                   overpayment recoupment efforts. Contractors have continuous access to
                   RAC-identified errors through the RAC Data Warehouse.23 Contractors
                   also analyze internal data, such as results of medical record reviews, to
                   determine which corrective actions would best prevent the CERT- and
                   RAC-identified errors in the future.
                   Error Rate Reduction Plan Requirements. For each contract they
                   administer, claims administration contractors must develop and submit an
                   error rate reduction plan that addresses the contract’s annual CERT
                   results.24, 25 A/B MACs receive separate Part A and Part B error rates and
                   must submit a plan for each Part. The plan is due 30 days after each
                   contractor receives its annual CERT results.




                   20
                      CMS, Medicare Fee-for-Service 2011 Improper Payments Report, p. 8.

                   21
                      CMS, Medicare Program Integrity Manual, ch.1, § 1.3.1. 

                   22
                      RACs are responsible for identifying overpayments and underpayments and are paid

                   according to the amount of improper payments they correct. CMS, Recovery Auditing in
                   the Medicare and Medicaid Programs for Fiscal Year 2011, pp. 2-3.
                   23
                      CMS, Statement of Work for the Recovery Audit Program, September 1, 2011, p. 12.
                   24
                      CMS, Medicare Program Integrity Manual, ch.12, § 12.3.9. New contractors are
                   required to submit error rate reduction plans if their contracts were in effect when the
                   contract-specific error rates became available, even if their contracts were not in effect
                   during the CERT review period.
                   25
                      The Medicare Program Integrity Manual states that DME Program Safeguard
                   Contractors (another type of Medicare contractor) are responsible for DME MAC
                   contracts’ error rate reduction plans. However, CMS informed OIG that this is not the
                   case: DME MACs are responsible for their contracts’ plans.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                    4
                   The plan must follow the format required by CMS’s data entry system.26
                   The plan must also include five elements that describe:
                        1.	 reasons for error in the contractor’s jurisdiction,27
                        2.	 corrective actions in place and new corrective actions planned for
                            the future,
                        3.	 adjustments that the contractor has made or will make to its
                            Medical Review Strategy,28
                        4.	 coordination activities among components29 within the contractor,
                            and
                        5.	 the ways in which the contractor will use the CERT results to
                            develop and implement provider outreach and education efforts.30
                   CMS Oversight of Error Rate Reduction Plans. CMS staff review each
                   error rate reduction plan to determine whether it is a “reasonable response
                   to the contractor’s error rate.”31 CMS regional office staff review the
                   medical review sections of the plans. CMS central office staff review the
                   provider outreach and education sections of the plans. According to
                   regional office guidance, CMS staff review the plan “in conjunction with
                   the applicable…CERT Improper Payment Report” and “ensure the plan
                   sufficiently addresses the reasons for errors within the [claims
                   administration contractor’s] jurisdiction.”32 CMS staff are also required to
                   ensure that each plan includes the five required elements. If CMS staff
                   have a question or concern about the plan, they may provide comments or
                   suggestions to the contractor. Contractors may submit multiple versions
                   between the initial submission and CMS approval.

                   26
                      CMS maintains the data entry system, which is available to contractors to enter their 

                   error rate reduction plans. The system includes fields that identify the contract, fields 

                   used by the contractors to enter plan content, and fields used by CMS staff to enter 

                   comments and identify CMS staff who reviewed the plan. 

                   27
                      According to CMS, this element requires contractors to report the types of CERT 

                   errors (e.g., service types or provider types) that, on the basis of their analysis of their 

                   CERT results, require corrective action. Contractors should also report why those CERT 

                   errors require corrective action (e.g., a high percentage of claims with a procedure code

                   had errors) and the results of their internal data analyses.

                   28
                      Claims administration contractors are required to develop an annual Medical Review 

                   Strategy for each contract. The strategy details the medical review issues, actions, and 

                   projected goals for reducing the error rate. CMS, Medicare Program Integrity Manual,

                   ch. 7, § 7.1. 

                   29
                      For example, medical review and provider outreach and education divisions. 

                   30
                      CMS, Medicare Program Integrity Manual, ch. 12, § 12.3.9. 

                   31
                      Ibid. 

                   32
                      CMS, Standard Operating Procedure M-4: Review of the Comprehensive Error Rate 

                   Testing (CERT) Error Rate Reduction Plan (ERRP), p. 2. The CERT Improper Payment 

                   Report is published annually and reports the national error rate, the common causes of

                   improper payments, and the steps CMS is taking to reduce the error rate. 


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                      5
                   Once any comments are addressed, CMS staff who reviewed the medical
                   review and provider outreach and education sections each communicate
                   the results of their review to central office staff. Generally, CMS staff
                   who review the plans assist CMS contracting officers and technical
                   representatives in interpreting Medicare program requirements and
                   ensuring that claims administration contractors follow the technical
                   requirements of their contracts.33
                   Other Documents Used for CMS Oversight of Claims Administration
                   Contractors’ Error Rate Reduction Efforts. In addition to reviewing error
                   rate reduction plans, CMS staff monitor claims administration contractors’
                   error rate reduction efforts throughout the year using a variety of other
                   oversight documents. CMS staff responsible for the medical review
                   section of plans review Medical Review Strategies, Strategy Analysis
                   Reports, and Monthly Status Reports.34 CMS staff responsible for the
                   provider outreach and education section of plans review Provider Service
                   Plans, Educational Activities Reports, and Monthly Status Reports.35
                   Performance-Based Incentives to MACs
                   To improve Medicare’s administrative services to beneficiaries and health
                   care providers, Congress replaced all other claims administration
                   contractor types with MACs and authorized CMS to use new contracting
                   tools.36 These tools include performance-based financial incentives.
                   Unlike the other types of claims administration contractors, MACs are
                   paid on a cost-plus-award-fee basis.37 CMS reimburses MACs for the cost
                   of fulfilling their contract responsibilities and offers incentives to
                   “motivate contractor efforts that might not otherwise be emphasized and
                   discourage contractor inefficiency and waste.”38


                   33
                      CMS, MAC Contract Administration Guide, revised June 3, 2011, p. 7.
                   34
                      The Strategy Analysis Report is the annual update to the Medical Review Strategy
                   Report and describes progress towards goals and any changes to the strategy. CMS,
                   Medicare Program Integrity Manual, ch. 7, §§ 7.1 and 7.8. MACs submit Monthly
                   Status Reports that include updates about all aspects of the contracts, including the
                   achievement of milestones and deliverables.
                   35
                      The Provider Service Plan outlines the contractor’s strategies and actions planned for
                   the coming year to support provider outreach and education and contains an evaluation of
                   the success of the previous year’s provider outreach and education. The Educational
                   Activities Report summarizes the contractor’s provider outreach and education actions
                   during the previous time period. CMS, Medicare Contractor Beneficiary and Provider
                   Communications Manual, ch. 6, §§ 20.7.1 and 20.7.2.
                   36
                      CMS, Medicare Administrative Contractors. Accessed at
                   http://www.cms.gov/Medicare/Medicare-Contracting/Medicare-Administrative-
                   Contractors/MedicareAdministrativeContractors.html on August 12, 2013. 

                   37
                      Social Security Act, § 1874A(b)(1)(D), requires CMS to provide incentive payments to

                   MACs to ensure service quality and promote efficiency. 

                   38
                      Federal Acquisition Regulation, Subpart 16.4—Incentive Contracts.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                  6
                   Before the beginning of each year of a MAC’s contract,39 CMS offers
                   incentives for the MAC’s performance during the upcoming year
                   (performance period).40 CMS selects certain metrics from the MAC’s
                   contract for which to offer these incentives. Examples of these metrics
                   include claims administration timeliness, responsiveness to beneficiary
                   inquiries, and error rate reduction. CMS weights each metric to determine
                   the percentage of the total incentive payments the MAC can earn for its
                   performance in each metric. CMS may change the metrics at any time,
                   although it must inform the MAC of any revisions to the evaluation
                   criteria before the performance period begins.41
                   At the end of each performance period, CMS determines the amount of
                   incentive payments, if any, a MAC has earned. CMS makes this
                   determination on the basis of its annual evaluation of the MAC and the
                   MAC’s self-reported performance assessment. In November 2012, GAO
                   found that CMS provided relatively small incentives—3 percent or less of
                   total incentives—to promote MACs’ use of effective prepayment edits.42

                   METHODOLOGY
                   Data Collection and Analysis
                   Error Rate Reduction Plan Content. From CMS, we collected all error
                   rate reduction plans that were in effect during calendar year 2011 or
                   2012.43 We received 42 plans in effect during 2011 and 34 plans in effect
                   during 2012. We also requested a list of all claims administration
                   contractors that received CERT results and determined whether a plan was
                   submitted for each contract, as required.
                   We reviewed each error rate reduction plan and recorded information
                   about all corrective actions (i.e., we created a corrective action database).
                   CMS does not define “corrective action” for the purpose of reporting them
                   in error rate reduction plans. In this report, we define “corrective action”
                   as an action that has been or will be taken by the claims administration
                   contractor to address a specific target and reduce its error rate. Corrective


                   39
                      The term of a MAC contract is 5 years. 

                   40
                      Performance metrics and evaluation criteria are set in the MAC’s annual Award Fee 

                   Plan. The Award Fee Plan’s performance period begins with the first full month and 

                   ends with the last full month of the contract performance period. 

                   41
                      CMS, Award Fee Plan for Part A and Part B Medicare Administrative Contractor

                   (A/B MAC) Jurisdiction 7, p. 3.
                   42
                      GAO, Greater Prepayment Control Efforts Could Increase Savings and Better Ensure
                   Proper Payment, GAO-13-102, November 2012.
                   43
                      During data collection, CMS inadvertently did not submit one error rate reduction plan
                   that was in effect during 2012. Therefore, although 77 plans were in effect during
                   2011 or 2012, our analysis is of the 76 submitted plans.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                  7
                   action targets include, but are not limited to, specific providers (e.g.,
                   providers with CERT errors), error types (e.g., documentation errors),
                   service types (e.g., an ambulance transport procedure code or a group of
                   procedure codes for chiropractic services), provider types (e.g.,
                   cardiologists), and facility types (e.g., skilled nursing facilities). A
                   statement such as “we will publish articles to educate providers” does not
                   identify the type(s) of error the articles will target and thus would not
                   count as a corrective action for the purpose of this report. However, a
                   statement such as “we will publish articles about power wheelchair billing
                   requirements” would count as a corrective action.
                   We determined whether error rate reduction plans included each of the five
                   required elements. Because CMS does not provide specific guidance on
                   what is required to meet each element, we adopted a lenient approach to
                   making this determination. Table 1 presents the minimum criteria we used
                   as review standards for the required elements.

                   Table 1: Required Elements and OIG Review Standards for Error
                   Rate Reduction Plans

                    Required Element                                      OIG Minimum Criteria Review Standard

                                                                     Plan identified types of error in the contractor’s
                    Reasons for error in the contractor’s            CERT results and explained why they required
                    jurisdiction                                 corrective action (e.g., a high percentage of claims
                                                                                        for a service type had errors)

                    Corrective actions in place and new              Plan listed at least one past and one new (i.e.,
                    corrective actions planned for the future                  planned or ongoing) corrective action

                    Adjustments that the contractor has made                  Plan listed at least one medical review
                    or will make to its Medical Review            corrective action and had medical review sections
                    Strategy                                                                      that were up-to-date

                    Coordination activities among components                     Plan described any type of internal
                    within the contractor                                                              coordination

                    How the contractor will use the CERT                Plan described the process for use of CERT
                    results to develop and implement provider     results for provider outreach and education efforts
                    outreach and education efforts                                  or provided a specific example(s)



                   Using our corrective action database, we determined the range and
                   average numbers of new, medical review, and provider outreach and
                   education corrective actions in error rate reduction plans. We compared
                   the numbers of these corrective actions with contracts’ error rates.
                   Using our corrective action database, we determined whether corrective
                   actions listed in error rate reduction plans applied to each contracts’ CERT
                   results. Specifically, we determined whether they targeted the appropriate
                   timeframe, claim type(s), and jurisdiction.


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                                  8
                   CMS Oversight of Error Rate Reduction Plans. Using date fields in the
                   error rate reduction plans we collected, we determined whether CMS’s
                   plan reviews were timely. We calculated the average number of days
                   between the effective date of each 2011 and 2012 plan and the date of
                   CMS’s approval as recorded in the data entry system.
                   We determined the extent to which claims administration contractors did
                   not report characteristics of corrective actions that could have affected
                   reviewers’ ability to determine the extent to which a corrective action
                   addressed an error. Using our corrective action database, we identified
                   corrective actions for which we could not determine one or more of the
                   following: status, service target, action, number of providers affected,44
                   and/or number of times the action had been or would be performed.45
                   We conducted structured telephone interviews with CMS staff in the
                   central and regional offices. In 2012, every error rate reduction plan
                   received a review of its medical review section by one of nine staff in
                   CMS regional offices and a review of its provider outreach and education
                   section by one of three staff in the central office. We interviewed and
                   collected supporting documentation from all 12 CMS staff who reviewed
                   plans about their general oversight of plans and claims administration
                   contractors’ error rate reduction efforts. We also interviewed them about a
                   sample of their plan reviews to determine the extent to which they
                   recommended different or additional corrective actions or had concerns
                   about the plans.46 We asked about reviews of the medical review and
                   provider outreach and education sections of 18 sampled plans. Therefore,
                   we collected interview data for 36 reviews.
                   We determined the extent to which sampled error rate reduction plans did
                   not include the five required elements or were associated with contracts
                   with error rates above CMS’s target during the Federal fiscal year
                   2010 and 2011 reporting periods (i.e., in the 2 years before the sampled
                   plans’ reviews). We compared the results of these analyses to our findings
                   on CMS’s review of the sampled plans.
                   Financial Incentives for MACs’ Error Rate Reduction. To analyze the
                   incentives that CMS offered to MACs to reduce their error rates, we

                   44
                      Applies only to corrective actions that contractors indicated were specific to certain
                   providers. 

                   45
                      Applies only to corrective actions that contractors indicated had been or would be

                   performed multiple times.

                   46
                      We selected a sample of 2012 error rate reduction plans so that staff members’

                   responses were based on the most recent plan reviews. The nine CMS staff who were 

                   responsible for the plans’ medical review content each reviewed between two and seven 

                   plans in 2012. We selected two plans from each of these staff members, using random

                   sampling to select plans for staff members who reviewed more than two plans.


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                  9
                   identified MACs with performance periods in calendar years 2011 and
                   2012. We requested information from CMS about the incentive payments
                   offered and MACs’ error rates.47 We also conducted a telephone interview
                   with CMS to collect information about how and when MACs’ incentives
                   for error rate reduction are set.
                   We determined the extent to which the size of incentives for error rate
                   reduction varied according to MACs’ error rates at the time incentives
                   were offered. We compared the contract performance periods with the
                   date range for sampled CERT claims that CMS used to measure MACs’
                   error rate reduction performance.
                   Our analysis focuses on the incentives that CMS offered to MACs at the
                   beginning of their performance periods and does not address the extent to
                   which MACs successfully reduced their error rates and received incentive
                   payments.
                   Limitations
                   We compared the numbers of corrective actions listed in error rate
                   reduction plans with contracts’ error rates. However, because the scopes
                   of corrective actions may vary, the number of corrective actions in a plan
                   may not necessarily measure the plan’s effectiveness. As a result, the
                   number of corrective actions listed in a plan may be a limited indicator of
                   a contractor’s response to its error rate.
                   At the time of our review, CMS did not document the dates that claims
                   administration contractors initially submitted error rate reduction
                   plans. Therefore, we were unable to determine whether plans were
                   submitted within the required timeframe (i.e., 30 days after the contractor
                   received its CERT results). We were also unable to determine the total
                   time for CMS’s plan reviews.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   47
                      CMS provided contract information for 13 MACs with contracts in effect during
                   2011 and for 15 MACs with contracts in effect during 2012.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)              10
                   FINDINGS
                   Most error rate reduction plans included the required
                   elements, but corrective actions were not always
                   relevant to claims administration contractors’ CERT
                   results and varied substantially in number
                   Although most error rate reduction plans met the minimum criteria we
                   established to determine whether plans included the five required
                   elements, some plans listed corrective actions that were irrelevant to
                   claims administration contractors’ CERT results. The numbers of
                   corrective actions listed in plans varied substantially, but not according to
                   contractors’ error rates.
                   Sixty-seven of seventy-six plans included the five required
                   elements
                   All 76 error rate reduction plans were submitted as required, and 67 of
                   76 plans met the minimum criteria we established to determine whether
                   plans included the 5 required elements.48 All plans included the element to
                   describe coordination between each claims administration contractor’s
                   components by meeting our minimum criterion of referencing any type of
                   internal coordination. All plans also included the element to describe how
                   the contractors would use their CERT results to develop and implement
                   provider outreach and education efforts by meeting our minimum criterion
                   of generally describing these efforts and/or providing at least one example.
                   Seven error rate reduction plans did not include the element to describe
                   adjustments that the claims administration contractors had made or would
                   make to their Medical Review Strategies. These plans did not meet our
                   minimum criterion of including at least one medical review corrective
                   action and having a medical review section that was up-to-date. The
                   contractors responsible for these plans had error rates ranging from 0.5 to
                   67.4 percent.
                   Three error rate reduction plans did not meet the requirement to describe
                   corrective actions in place and new corrective actions planned for the
                   future. These plans did not meet our minimum criterion of including at
                   least one past and one new corrective action in response to claims
                   administration contractors’ recent CERT results. For example, one plan
                   reported only five corrective actions, all of which had occurred in the past.
                   The contractors responsible for these plans had error rates ranging from
                   0.5 to 23.7 percent.

                   48
                      Six plans did not include one required element and three plans did not include two
                   required elements.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                   11
                   Two error rate reduction plans did not meet the requirement to describe
                   reasons for error in the claims administration contractors’ jurisdictions.
                   These plans did not meet our minimum criterion of identifying types of
                   error in their CERT results and explaining why they were considered
                   priorities. These plans did not include any analysis of the contractors’
                   CERT results, such as providing error rates for identified services. The
                   contractors responsible for these plans had error rates of 8.0 and
                   75.1 percent.
                   Plans’ corrective actions were not always relevant to
                   contractors’ CERT results
                   Some plans listed corrective actions that were outside the timeframe of
                   their CERT results or the scope of their contracts.
                   Twenty-seven plans listed at least one corrective action outside the
                   timeframe of their CERT results. Error rate reduction plans should address
                   the claims administration contractor’s most recent CERT results.
                   However, 27 of 76 plans listed at least 1 corrective action outside the
                   timeframe of their most recent CERT results. Contractors that submitted
                   the 27 plans reported actions taken prior to the CERT review period or
                   used CERT results from prior years as a rationale for corrective actions.
                   Thirteen plans each listed more than 20 of these corrective actions. For
                   example, to explain why corrective actions would be taken, a plan that was
                   submitted in April 2012 stated: “The error rate [for oxygen supplies]
                   increased from 26% on the [contract-specific] November 2009 CERT
                   Error Report to 73% on the November 2010 report,” but did not include
                   information from the contract’s most recent (i.e., 2011) CERT results.
                   Sixteen plans listed at least one corrective action outside the scope of their
                   contracts’ claim types or jurisdictions. Claims administration contractors’
                   CERT results are specific to the claim type(s) and jurisdiction included in
                   the scope of their contracts. However, 16 of 76 plans listed at least
                   1 corrective action outside the scope of their contracts’ claim type or
                   jurisdiction. For example, one contract covered Connecticut and New
                   York, but its plan described in-person provider workshops in Kentucky,
                   Michigan, Indiana, and Wisconsin. Corrective actions outside the scope
                   of the contract do not indicate that the contractor’s plan was deficient, but
                   rather that the plan was not tailored to the errors specific to the contract.
                   The numbers and types of corrective actions in plans varied,
                   but not according to contractors’ error rates
                   Although most error rate reduction plans met our minimum criteria for
                   including the five required elements, the numbers and types of corrective
                   actions listed in plans varied.


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)        12
                   Most error rate reduction plans included the element to describe
                   adjustments to the contracts’ Medical Review Strategies. However, the
                   numbers of medical review corrective actions listed in all plans varied
                   from 0 to 97, with an average of 21 per plan. Twenty-four of seventy-six
                   plans listed 10 or fewer of these corrective actions. Medical review
                   corrective actions varied from postpayment reviews of individual
                   providers’ claims to prepayment reviews of all claims submitted with
                   certain procedure codes.
                   All error rate reduction plans included the element that claims
                   administration contractors describe how they will use CERT results to
                   develop and implement provider outreach and education efforts.
                   However, the numbers of provider outreach and education corrective
                   actions listed in plans varied from 3 to 969, with an average of 74 per
                   plan. Provider outreach and education corrective actions varied from a
                   letter educating a single provider to an in-person training attended by
                   hundreds of providers.
                   Although most error rate reduction plans listed at least 1 new (i.e., planned
                   or ongoing) corrective action, the numbers of new corrective actions listed
                   in plans varied from 0 to 529, with an average of 28 per plan. On average,
                   less than one-third (32 percent) of the corrective actions listed in plans
                   were new; the remaining actions were already completed.49 Additionally,
                   24 of 76 plans listed 10 or fewer new corrective actions. Although CMS
                   expects claims administration contractors to report what they have done in
                   the past to address a particular problem, plans should also list new
                   corrective actions that a contractor will take to address its most recent
                   CERT results.50
                   The numbers of corrective actions in error rate reduction plans did not
                   vary according to claims administration contractors’ error rates.51
                   Contractors with high error rates did not always submit plans that listed
                   more corrective actions than contractors with low error rates. See
                   Table 2 for examples of plans’ corrective actions and their contracts’ error
                   rates. For example, one plan for a contract with an error rate of
                   23.7 percent and $1.7 billion in projected improper payments did not list
                   any new corrective actions or medical review corrective actions (Plan
                   10 in Table 2). In contrast, one plan for a contract with an error rate of
                   4.7 percent and $254 million in projected improper payments listed

                   49
                      Because we could not determine the status of 5 percent of corrective actions, these are 

                   excluded from this analysis.

                   50
                      CMS, Medicare Program Integrity Manual, § 12.3.9. 

                   51
                      Because contractors may take a wide range of corrective actions, the number of 

                   corrective actions listed in a plan may be a limited indicator of a contractor’s response to

                   its error rate. 


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                      13
                   58 new corrective actions and 21 medical review corrective actions
                   (Plan 2 in Table 2).

                   Table 2: Contractors’ Error Rates and Corresponding Numbers of
                   Corrective Actions in Example Error Rate Reduction Plans
                                                                                                             Number of Provider
                                                   Number of New             Number of Medical                     Outreach and
                                                      Corrective             Review Corrective              Education Corrective
                    Plan        Error Rate               Actions                       Actions                          Actions

                    1                 4.3%                           6                             6                               35
                    2                 4.7%                         58                            21                                51
                    3                 6.7%                           3                           20                                11
                    4                 6.7%                         77                            71                                43
                    5                 8.8%                         69                            57                                85
                    6                 9.0%                           0                             0                               34
                    7               13.5%                          65                            50                                79
                    8               14.4%                          13                              4                               61
                    9               22.4%                          75                            19                                84
                    10              23.7%                            0                             0                               35
                   Note: The numbers used in the table are not the numbers used by CMS to identify claims administration contracts.
                   We use them to delineate the individual plans that are the subject of our review. For one plan in this table, a few
                   months remained on the contract at the time its plan was submitted; contracts for the other nine plans in this table
                   each had at least 1 year remaining.
                   Source: OIG analysis of 2011 and 2012 error rate reduction plans, 2013.


                   CMS oversight of error rate reduction plans is limited
                   CMS does not use error rate reduction plans to oversee claims
                   administration contractors’ error rate reduction efforts to the extent
                   possible. CMS staff reviewed plans after the start of the plans’ effective
                   year. CMS staff did not typically use CERT data to ensure that plans
                   addressed contractors’ errors. Further, CMS staff may be unable to
                   determine whether contractors’ plans address their most recent CERT
                   results because of contractors’ unclear reporting of their corrective actions.
                   Finally, in our sampled plan reviews, CMS approved all plans without
                   recommending different or additional corrective actions. This occurred
                   even though some of the plans did not include the five required elements
                   or were associated with contracts with high error rates.
                   Some CMS reviews were completed well into the plans’
                   effective year
                   Because the 2011 and 2012 error rate reduction plans were not due from
                   claims administration contractors until January 2012 and
                   2013, respectively, CMS staff completed all reviews after the plans’
                   effective year began. Twenty of seventy-six plans were approved by CMS
                   more than 2 months into the plans’ effective year (i.e., on or after March
                   1). One of those plans was approved by CMS nearly 5 months into the

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                                              14
                   plan’s effective year. These delayed approval dates may have been caused
                   by late submissions from the contractors. However, we could not make
                   this determination because CMS did not document the dates it received the
                   initial plans and documented only the date the contractors submitted the
                   last version of the plans.
                   CMS does not independently verify contractors’ top errors
                   using CERT results
                   CMS staff who review error rate reduction plans do not use
                   contract-specific CERT results to independently verify the reasons for
                   claims administration contractors’ errors. According to CMS regional
                   office guidance, CMS staff review the plans “in conjunction with the
                   applicable…CERT Improper Payment Report.”52 However, this report is
                   not specific to each contract, and 10 of 12 CMS staff we interviewed
                   stated that they do not review contract-specific CERT results.53 Instead,
                   CMS staff rely on contractors to analyze their CERT results and identify
                   their reasons for error.
                   In addition to not using CERT results, CMS staff who review error rate
                   reduction plans rarely use other data sources to identify reasons for error
                   in the contractors’ jurisdictions. None of the staff reported that they
                   review contract-specific RAC data. Two staff mentioned that they review
                   summaries of provider inquiries (providers who called the contractor to
                   ask, for example, about documentation or billing requirements) to identify
                   areas needing provider outreach and education corrective actions. Data
                   from RACs and other sources could help CMS staff identify additional
                   areas in need of corrective action.
                   CMS reviewers may have been unable to determine whether
                   contractors’ plans addressed their most recent CERT results
                   Claims administration contractors often did not clearly report information
                   about corrective actions in error rate reduction plans that could have
                   affected reviewers’ ability to determine whether plans were a reasonable
                   response to contractors’ most recent CERT results. For an average of
                   41 percent of corrective actions per plan, we could not determine one or
                   more of the characteristics below:




                   52
                      CMS, Standard Operating Procedure M-4: Review of the Comprehensive Error Rate
                   Testing (CERT) Error Rate Reduction Plan (ERRP), p. 2.
                   53
                      CMS central office staff stated that they began providing contract-specific CERT
                   analyses to staff who review plans in December 2012. However, when we interviewed
                   them in January 2013, 7 of 12 CMS staff we interviewed were unaware that this
                   information was available.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                 15
                   	 Status. The contractor did not indicate whether these actions were
                      already completed or were new actions in response to the most recent
                      CERT results.
                   	 Service target. The contractor did not indicate the specific service(s),
                      such as spinal adjustment, or category of service(s), such as
                      chiropractic services, with errors being addressed by these actions.
                      For example, a corrective action that is described as addressing errors
                      for “general surgery” is not specific enough to be matched with the
                      contract’s CERT results.
                   	 Action. For these actions, the contractor did not indicate what it had
                      done or planned to do. For example, some plans were vague and
                      stated that they would “conduct education” and others listed a range of
                      potential actions, such as “articles, targeted mailings, or web[-based
                      trainings]” without specifying which would be taken.
                   	 Number of providers affected. Although the contractor indicated these
                      actions were specific to certain providers, it did not identify the
                      numbers of providers affected by the actions (for example, “there have
                      been multiple face to face meetings with facility providers”).
                   	 Number of times the action was or would be performed. Although the
                      contractor indicated these actions were or would be performed
                      multiple times, it did not identify the numbers of times the actions
                      were or will be performed (for example, “conduct web-based trainings
                      on physical therapy services”).
                   CMS approved all sampled plans without recommending
                   different or additional corrective actions
                   CMS staff approved all sampled error rate reduction plans, including plans
                   that did not include the five required elements or were for contracts with
                   high error rates.54 Three of the eighteen sampled plans did not include one
                   or more of the five required elements, according to our review. CMS staff
                   did not note this in their plan reviews. Additionally, eight sampled plans
                   were associated with contracts that had error rates above CMS’s national
                   error rate targets in the 2 years before the plans were submitted. The error
                   rates for these plans ranged from 8.8 to 71.3 percent. Although CMS staff
                   asked for clarifications or additional information from claims
                   administration contractors in their reviews of some of these plans, CMS
                   staff did not recommend that contractors take different or additional
                   corrective actions for any of the sampled plans.


                   54
                      This analysis is based on CMS interview responses about a sample of 18 of the 34 error
                   rate reduction plans in effect during 2012.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                  16
                   Several CMS staff stated that they did not recommend that claims
                   administration contractors address specific errors or take specific actions
                   because they do not have the authority to require contractors to take
                   specific corrective actions. Although this is true, CMS staff who review
                   error rate reduction plans may make suggestions to contractors.
                   Additionally, CMS contracting officers rely on other CMS staff, including
                   those who review error rate reduction plans, to ensure that MACs meet
                   contractual requirements.55 CMS contracting officers have the authority to
                   issue technical direction, as needed, to redirect contractors’ efforts.56

                   Limitations in CMS’s administration of incentives for
                   error rate reduction may reduce their effectiveness
                   Although CMS has the authority to offer incentives to MACs to reduce
                   their error rates, limitations in the incentives’ administration may reduce
                   their effectiveness. CMS offered incentives to MACs only in certain years
                   of their contracts. For MACs that were offered incentives for error rate
                   reduction, the amount of incentive payments offered did not vary
                   according to the MACs’ error rates. Additionally, because of the timing of
                   CERT reviews, MACs’ incentive payments often were not aligned with the
                   appropriate performance period.
                   CMS offers incentives for error rate reduction in only 2 of the
                   5 years of MACs’ contracts
                   In 2011 and 2012, CMS offered error rate reduction incentives to each
                   MAC that was entering the third or fourth year of its 5-year contract.
                   These MACs were eligible to earn error rate reduction incentive payments
                   by (1) meeting CMS’s national error rate goal and/or (2) reducing their
                   error rates from the previous year.
                   CMS stated that it does not offer error rate reduction incentives in the first
                   and second years of MACs’ contracts because their baseline error rates are
                   established during that time.57 CMS does not offer error rate reduction
                   incentives in the fifth year of MACs’ contracts because of delays in CERT
                   error rate reporting. Seven A/B MACs and all four DME MACs were not
                   eligible to earn error rate reduction incentives in 2011 and/or 2012 because
                   they were in the first, second, or fifth years of their contracts.



                   55
                      CMS, MAC Contract Administration Guide, revised June 3, 2011, p. 7.
                   56
                      Ibid., pp. 6-7. Technical direction can be given to MACs but not the other claims
                   administration contractor types.
                   57
                      During the first year, or base year, of the contract, which is composed of
                   implementation and operational periods, the performance period may be 6 months. The
                   second year, or first option year, is the first year in which the contract is fully operational.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                         17
                   The dollar amounts of error rate reduction incentives did not
                   vary according to MACs’ error rates
                   CMS allocates a set percentage of a MAC’s available incentive payments
                   to the error rate performance metrics.58 Because the amount of available
                   incentive payments varies for each MAC, the amount offered for error rate
                   reduction also varies. However, MACs with higher error rates and higher
                   amounts of total improper payments are not necessarily offered larger
                   error rate reduction incentives than MACs with lower error rates and
                   lower total amounts of improper payments. Table 3 presents MACs’ error
                   rates, projected improper payments, and incentive payments offered for
                   MACs’ error rate reduction in 2011 or 2012.

                   Table 3: MACs’ Error Rates and Error Rate Incentives Offered
                   in 2011 or 2012

                                                                                              Total Incentive Payment
                                                                  Projected Improper             Offered for Error Rate
                    MAC                     Error Rate                     Payments                       Performance
                    K                           21.1%                 $1,838,556,166                              $25,624
                    L                           14.4%                 $2,588,848,665                              $23,396
                    M                           12.9%                 $3,486,959,464                              $36,354
                    N                           12.4%                 $2,742,378,638                              $12,474
                    O                             9.2%                $1,691,643,349                              $23,362
                    P                             7.9%                  $673,036,000                               $4,308
                    Q                             7.0%                  $940,201,239                               $5,610
                    R                             6.6%                  $949,329,121                              $25,520
                    S                             5.5%                $1,497,499,970                              $36,312
                    T                             5.3%                  $612,733,603                              $23,316
                    U                             4.7%                  $603,679,066                              $81,966
                    V                             4.0%                  $273,368,227                              $24,428
                    W                             3.5%                    $28,572,533                             $19,620
                   Note: The letters used in the table are not the letters used by CMS to identify MAC contracts. We use them 

                   to identify the individual MAC contracts that are the subject of our review.

                   Source: OIG analysis of award fees offered to MACs, 2013.




                   In 2011 and 2012, the incentives for error rate reduction ranged from
                   $4,308 to $81,966 per contractor, out of total possible incentive payments
                   between $891,752 and $3.5 million. Total contract values in the years in
                   which incentives were offered were between $49.6 million and
                   $122.1 million.


                   58
                     For the 2011 and 2012 performance periods, CMS allocated 5 percent of the Medicare
                   Integrity Program pool, one of two funding pools for MACs’ incentive payments, to error
                   rate reduction.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)                                          18
                   Among MACs that were offered error rate reduction incentives, the MAC
                   with the second highest projected improper payment amount (listed as “N”
                   in Table 3) was offered one of the smallest incentives for error rate
                   reduction. CMS offered the MAC $12,474 to lower its error rate. At the
                   time the incentive was offered, the MAC had an error rate of 12.4 percent,
                   resulting in $2.7 billion in projected improper payments. In contrast, the
                   MAC that was offered the largest incentive for error rate reduction (listed
                   as “U” in Table 3) had one of the lowest error rates. That MAC was
                   offered an incentive to lower its error rate of $81,966 and had an error rate
                   of 4.7 percent at the time that the incentive was offered.

                   CMS did not align MACs’ incentive payments with the
                   appropriate performance periods
                   The timing of the CERT program and the error rate reduction incentive
                   performance period often did not align. At the time that CMS offered the
                   incentives, an average of 4 months remained in the years during which
                   MACs’ error rate performance was to be measured. For example, one
                   MAC’s incentive performance period covered its performance between
                   October 2010 and September 2011. This MAC was offered incentives to
                   reduce its error rate. However, CMS used the MAC’s error rate for claims
                   processed during calendar year 2010 to determine the incentive payments
                   the MAC earned. Therefore, at the time the incentives were offered, the
                   MAC had only 3 months remaining in the measurement period. For two
                   MACs, there was no overlap between the error rate measurement period
                   and incentive performance period. The lack of alignment between the
                   measurement and incentive performance periods may lessen the
                   effectiveness of error rate reduction incentives.




Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)      19
                   CONCLUSION AND RECOMMENDATIONS
                   OIG has consistently found vulnerabilities in CMS’s oversight of
                   contractors. The primary goal of claims administration contractors is to
                   “pay it right.”59 During the 2012 fiscal reporting period, claims
                   administration contractors improperly paid an estimated $29.6 billion out
                   of the $349.7 billion in total Medicare Part A and Part B expenditures.
                   Error rate reduction plans are intended to outline contractors’ strategies for
                   reducing their error rates and serve as the cornerstone of these efforts.
                   Plans that include comprehensive medical review and provider outreach
                   and education corrective actions may help protect the integrity of
                   Medicare funds.
                   Claims administration contractors must process and pay large volumes of
                   claims timely. Implementing medical review actions to detect and prevent
                   improper payments slows claims processing, and both medical review and
                   provider outreach and education incur costs for the contractor. Given this,
                   effective CMS oversight of contractors’ responses to their CERT results is
                   essential.
                   CMS monitors claims administration contractors’ error rate reduction
                   efforts using a variety of oversight documents. However, our review
                   identified vulnerabilities and opportunities for improvement in two tools
                   central to CMS’s oversight of contractor error rates: error rate reduction
                   plans and performance-based financial incentives.
                   Therefore, we recommend that CMS:
                   Review Its Process for Overseeing Contractors’ Error Rate
                   Reduction
                   CMS should review its process for overseeing claims administration
                   contractors’ error rate reduction. Although CMS reviews a variety of
                   documents submitted by contractors, unlike the other documents, error
                   rate reduction plans are designed specifically to address the contracts’
                   most recent errors. However, if CMS determines that its oversight of
                   other documents, such as the Medical Review Strategy and the Provider
                   Service Plan, are fulfilling the goal of overseeing contractors’ response to
                   their CERT results, CMS should reevaluate the usefulness of error rate
                   reduction plans.



                   59
                     CMS, Medicare Fee-for-Service 2011 Improper Payments Report, p. 6. Accessed at
                   http://www.cms.gov/Research-Statistics-Data-and-Systems/Monitoring-
                   Programs/CERT/Downloads/2011-Medicare-FFS-Improper-Payment-Report-.pdf on
                   May 9, 2013.

Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)              20
                   Ensure That Contractors Submit Clear Plans for Reducing
                   Their Error Rates
                   CMS should ensure that error rate reduction plans are sufficiently clear so
                   that staff who review them can determine whether claims administration
                   contractors are planning corrective actions that will effectively reduce
                   their error rates. CMS could require that the format in which contractors
                   report corrective actions, whether in error rate reduction plans or another
                   document reviewed by CMS, clearly convey basic information about each
                   action. This should include the status and target of the action.
                   Provide Additional Guidance for Contractors and CMS Staff
                   Who Review Plans
                   CMS should give claims administration contractors and CMS staff who
                   review error rate reduction plans specific guidance on what is required to
                   meet the five required elements and what constitutes an “appropriate
                   response to the contractor’s error rate.” Although regional office guidance
                   directs CMS staff to ensure that “program funds, resources and actions
                   planned are appropriate to reduce the claims payment error rate within
                   their jurisdiction,” it does not specify how staff should make this
                   determination. Issuing such specific guidance may improve the quality of
                   plan submissions and CMS reviews.
                   Although CMS stated that it provides staff with analyses of
                   contract-specific CERT results, CMS should ensure that staff are aware of
                   these analyses. CMS should also provide guidance to staff on how to use
                   these analyses in their plan reviews. CMS could also provide its staff with
                   additional analyses of contract-specific RAC data. Doing so is especially
                   important for contractors with persistently high error rates.
                   CMS should provide guidance to its staff about what to do if error rate
                   reduction plans do not include the required elements or do not address
                   claims administration contractors’ error rates. The guidance should
                   address when staff who review plans should make suggestions to the
                   contractor or recommendations to contracting officers, as appropriate.
                   Provide Error Rate Reduction Incentives That Are Aligned With
                   the Contracts’ Error Rates and Performance Periods
                   If allowed under the Federal Acquisition Regulation, CMS should explore
                   offering incentives for error rate reduction in more than 2 years of MACs’
                   contracts. CMS should take into account MACs’ error rates when setting
                   the incentives.
                   CMS should use error rate data that match the incentive performance
                   periods. If this is not possible using CERT data, CMS should explore
                   using alternate error rate performance measures.


Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)     21
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all four of our recommendations. CMS described
                   current and future steps to improve error rate reduction plans and to ensure
                   its effective oversight of the plans and the financial incentives it offers
                   contractors to reduce their error rates. Among these steps, CMS has
                   already begun to provide quarterly contractor-specific improper payment
                   reports and will develop an interactive dashboard containing real-time data
                   to help CMS and its contractors address the most recent improper payment
                   findings. We note that in its comments about our recommendation to
                   provide error rate reduction incentives that are aligned with contracts’
                   error rates and performance periods, CMS did not indicate whether it will
                   take into account MACs’ error rates when setting the incentives. For the
                   full text of CMS’s comments, see the Appendix.




Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)     22
                         APPENDIX

                         Agency Comments


                  +.#">1--'-~YICf:$~



              (             ~           DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                  '·~~                                                                                          Administrator
                                                                                                                Washington, DC 20201




                                       DATE:
                                                      NOV 19 2013
                                       TO: 	         Daniel R. Levinson
                                                     Inspector General
                                                                        /S/
                                       FROM: 	       Marilyn T.a~nner
                                                     Administrator'

                                       SUBJECT: 	 Office of the Inspector General (OIG) Draft Report: '"Medicare Claims
                                                  Administration Contractors' Error Rate Reduction Plans" (OEI-09-12-00090)


                                       The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                                       comment on the above mentioned OIG report. This report examined error rate reduction plans
                                       for calendar year 2011 and 2012, described plan content and determined whether the plan
                                       included required elements. OIG also assessed CMS's oversight of the plans and analyzed
                                       information about the incentives that CMS offered to Medicare Administrative Contractors
                                       (MACs) in 2011 and 2012 to reduce their error rates. OIG's recommendations and the CMS
                                       response to those recommendations are discussed below.

                                       OIG Recommendation

                                       The OIG recommends CMS review its process for overseeing contractors' error rate reduction.

                                       CMS Response

                                       The CMS concurs with this recommendation to review the process for overseeing contractors'
                                       error rate reduction plans (ERRPs).

                                       CMS has processes in place to ensure that all plans are approved and properly address reductions
                                       in improper payments. CMS requires that MACs submit ERRPs on at least an annual basis. The
                                       ERRPs are reviewed and approved by CMS medical review and provider outreach and education
                                       staff for accuracy and corrective actions. CMS provides feedback to the MACs during the ERRP
                                       evaluation process but the process may not be formally documented. We plan to continue
                                       monitoring the ERRPs and will formally document the process.

                                       As a result ofOIG's work on this report and to avoid repetitive reporting, we are evaluating
                                       alternatives for overseeing the contractor's ERRPs.




Medicare Claims Administration Contractors' Error Rate Reduction Plans (OEI-09-12-00090)                                                                   23
                   APPENDIX

                   Agency Comments Continued




Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)   24
                   APPENDIX

                   Agency Comments Continued




Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)   25
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   Sarah Ambrose served as the team leader for this study, and Rosemary
                   Rawlins served as the lead analyst. Other Office of Evaluation and
                   Inspections staff from the San Francisco regional office who conducted
                   the study include Bi Nguyen. Central office staff who provided support
                   include Althea Hosein and Scott Manley.




Medicare Claims Administration Contractors’ Error Rate Reduction Plans (OEI-09-12-00090)     26
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
